               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




                  Fiscal Year 2013
              Statistical Test Reviews

         Management Advisory Report




                                              March 7, 2014

Report Number FT-MA-14-007
                                                                            March 7, 2014

                                             Fiscal Year 2013 Statistical Test Reviews

                                                          Report Number FT-MA-14-007




BACKGROUND:
The Postal Accountability and                 WHAT THE OIG FOUND:
Enhancement Act of 2006 requires the          Data collection technicians did not
U.S. Postal Service to report its annual      always conduct system tests in
revenue and mail volume to the Postal         accordance with set procedures. We
Regulatory Commission. The Origin-            identified 16 test errors in 10 of 45 tests
Destination Information System-               we observed. Specifically, the
Revenue, Pieces, and Weight is the            technicians did not always:
primary system for collecting revenue,
volume, and weight data for most mail            Follow and apply the appropriate test
classes and extra services. The Postal            mail sampling methodology.
Service uses system data to develop              Correctly enter and verify all data
new postage rates, conduct studies,               entered into their laptop computers.
prepare its budget, and support                  Properly identify, isolate, and capture
decisions on mail operations.                     test mail.

As part of this process, data collection      In addition, we identified four instances
technicians conduct statistical mail tests    where data collection technicians did not
to sample live mail and collect data to       protect their laptop computers. These
estimate stamp usage to calculate             errors occurred during the first 3
postage bought by the public but not          quarters of FY 2013. No errors were
used.                                         identified in the last quarter, when
                                              remediation efforts were completed.
The Postal Service began a remediation        Based on our observations and
plan in fiscal year (FY) 2013 to address      management’s efforts to mitigate the
a deficiency in data collection sampling      potential risk of test errors, we think the
procedures reported by management on          reduction in the severity of the
September 30, 2012. As a result of the        deficiency is appropriate.
remediation plan, revision of data
collection handbooks, and mandatory           WHAT THE OIG RECOMMENDED:
data collection training, the Postal          We recommended management
Service reduced the severity of the           continue training on sampling
deficiency as of September 30, 2013.          methodology policies and protecting
                                              data collection equipment and complete
Our objective was to determine whether        and issue revisions of all statistical
the Postal Service conducted statistical      programs handbooks.
mail tests in accordance with
established policies and procedures.          Link to review the entire report
March 7, 2014

MEMORANDUM FOR:             STEVEN R. PHELPS
                            MANAGER, REGULATORY REPORTING AND COST
                            ANALYSIS




FROM:                       John E. Cihota
                            Deputy Assistant Inspector General
                             for Financial and Systems Accountability

SUBJECT:                    Management Advisory Report – Fiscal Year 2013 Statistical
                            Test Reviews (Report Number FT-MA-14-007)

This report presents the results of our review of Fiscal Year 2013 Statistical Test
Reviews (Project Number 13WD005FI000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Denice M. Millett, director,
Finance, or me at 703-248-2100.

Attachment

cc: Julie S. Moore
    Corporate Audit and Response Management
Fiscal Year 2013 Statistical Test Reviews                                                                          FT-MA-14-007




                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Repeat Test Errors .......................................................................................................... 2

Equipment Security and Data Integrity ............................................................................ 4

Recommendations .......................................................................................................... 4

Management’s Comments .............................................................................................. 4

Evaluation of Management’s Comments ......................................................................... 5

Appendix A: Additional Information ................................................................................. 6

   Background ................................................................................................................. 6

   Objective, Scope, and Methodology ............................................................................ 7

   Prior Audit Coverage ................................................................................................... 8

Appendix B: Detailed Analysis ........................................................................................ 9

Appendix C: Management's Comments ........................................................................ 12
Fiscal Year 2013 Statistical Test Reviews                                                               FT-MA-14-007




Introduction

This report presents the results of our review of Fiscal Year (FY) 2013 Statistical Test
Reviews (Project Number 13WD005FI000). The objective of our review was to
determine whether the U.S. Postal Service conducted statistical Origin-Destination
Information System-Revenue, Pieces, and Weight (ODIS-RPW) tests to collect revenue
and volume data in accordance with established policies and procedures. We reviewed
tests of the ODIS-RPW and conducted this work in support of the audit of the Postal
Service’s financial statements.1 See Appendix A for additional information about this
review.

ODIS-RPW is the primary probability sampling system that estimates revenue, volume,
and weight for most classes of mail and extra services. Management uses test data to
develop new rates, prepare its budget, conduct studies, and support decisions
concerning mail operations. Data collection technicians (data collectors) observe
employee work activity, sample live mail, and collect data at randomly selected sites;
record the information on laptop computers; and transmit it for review. The data
collectors record various mailpiece characteristics, such as revenue, weight, shape,
indicia, barcode, postmark date, origin, and mail class. As part of this process, the
Postal Service also relies on statistical programs’ sample data to protect revenue and
estimate stamp usage when calculating Postage in the Hands of the Public (PIHOP).2

In addition, the independent public accountant (IPA) uses ODIS-RPW report information
and field level test results to support the integrated audit of the financial statements and
internal controls over financial reporting.

Conclusion

The Postal Service did not always follow established data collection policies and
procedures. We identified 16 errors in 10 of 45 tests observed3 during the first
3 quarters4 of the fiscal year, and identified no test errors during the last nine tests we
observed in the fourth quarter. The test errors we identified included technicians:

   Not following procedures or applying an inappropriate random start or
    mailpiece/container skip interval.

1
  This report does not present the results of audit work required under the Postal Accountability and Enhancement
Act of 2006 (Postal Act of 2006).
2
  The process of deferring the recognition of revenue for postage purchased, but where services have not yet been
provided.
3
  These errors occurred in six of 15 districts reviewed.
4
  A Postal Service quarter is an accounting division of the fiscal year that consists of 3 monthly accounting periods
that are based on calendar months. Postal Service Quarter (Q) 1 – October 1 through December 31, 2012, Postal
Service Q2 – January 1 through March 31, 2013, Postal Service Q3 – April 1 through June 30, 2013, and Postal
Service Q4, July 1 through September 30, 2013.
                                                             1
                                                  Restricted Information
Fiscal Year 2013 Statistical Test Reviews                                                               FT-MA-14-007




   Improperly entering and not verifying information keyed into the laptop computer.

   Improperly identifying, isolating, and capturing test mail.

In addition to the test errors identified, we found instances where data collectors did not
protect their laptop computers.

In FY 2013, the Postal Service began a remediation plan to address the significant
internal control deficiency5 related to data collection sampling procedures identified in
FY 2012. The remediation efforts continued through May 2013. We believe these
remediation efforts contributed to the U.S. Postal Service Office of Inspector General
(OIG) identifying no test errors in our Q4 test observations. As a result of the
remediation plan, the Postal Service reduced the severity of the ODIS-RPW control
deficiency from a significant internal control deficiency to a control deficiency. Based on
the decrease in test errors during our observations and management’s continued efforts
to mitigate the potential risk of testing errors, we believe the reduction in the severity of
the internal control deficiency is appropriate.

Repeat Test Errors

In FY 2010 through FY 2012, we identified recurring test errors in our annual statistical
programs capping reports.6 A review of FY 2010 through FY 2013 shows continuous
improvement in ODIS-RPW testing procedures, with fewer overall errors and fewer
districts with errors.

We believe the decrease in test errors is the result of the Postal Service’s remediation
plan, the revision of data collection handbooks that highlight sampling processes and
procedures,7 and mandatory data collection training. The test errors we identified in FY
2013 occurred in Qs 1 through 3. We did not identify any errors in the last quarter of the
fiscal year. The 16 test errors we identified in FY 2013 included data collectors who did
not always:

   Follow procedures or apply the appropriate random start number for
    mailpiece/container skip intervals. We identified 12 test errors where the data
    collector did not apply and follow the approved sampling methodology 8 to identify
    mailpieces and/or containers and did not apply the correct random start number



5
  A significant deficiency, or a combination of deficiencies, in internal controls over financial reporting that is less
severe than a material weakness, yet important enough to merit attention by those responsible for oversight of Postal
Service financial reporting.
6
  Statistical Tests for Fiscal Year 2012 (Report Number FT-MA-13-009, dated February 19, 2013); Statistical Tests for
Fiscal Year 2011 (Report Number FT-MA-11-168, dated September 29, 2011); and Statistical Tests for Fiscal Year
2010 (Report Number FF-AR-10-222, dated September 14, 2010).
7
  Management had not finalized data collection handbooks at the conclusion of our fieldwork.
8
  Handbook F-75, Data Collection User’s Guide for Revenue, Volume, and Performance Measurement System-Draft,
Section 372.4, November 2013.


                                                           2
Fiscal Year 2013 Statistical Test Reviews                                       FT-MA-14-007



     for testing. A data collector must select the required mailpieces by applying the
     mailpiece skip interval to all selected mailpieces and to containers using the
     container skip interval.9 Specifically, data collectors did not:

     o Select the correct mailpiece for testing when performing the mailpiece skip
       interval count (six errors).

     o Identify the appropriate containers (four errors).

     o Include all trays of mail in the container counts (two errors).

     In most cases, data collectors stated the errors were due to miscounting trays and
     mailpieces that were stuck together. In addition, two data collectors said our
     presence made them nervous, causing them to select the incorrect mailpiece.

    Enter correctly or verify the information keyed into the Computerized On-Site Data
     Entry System (CODES) Web Base Unit laptop computer (three errors). As data from
     a mailpiece is entered into the laptop computer system, a record of each entry
     appears on the screen. After all the data for the selected mailpiece has been
     entered, the data collector must verify that the keyed information is correct by
     answering the questions prompted by the ODIS-RPW CODES software system.10

     Specifically, we identified errors related to data collectors incorrectly entering the
     value of two 2012 Forever stamps and the meter number of one mailpiece. One data
     collector stated she was aware of the recent stamp price increase, but believed that
     it only applied to the 2013 Forever stamps and not those sold prior to 2013. The
     second data collector could not provide a cause for incorrectly entering the meter
     number into the system.

    Properly identify, isolate, and capture mail to be sampled/tested (one error).
     Specifically, we observed one instance where the data collector did not include a
     bundle of mail in the test sample. The data collector is responsible for identifying,
     isolating, counting, sampling, and recording the necessary mailpieces.11 The data
     collector stated that she did not see the bundled mail because a distribution clerk
     placed it between two mail tubs. When employees do not follow testing procedures
     for mailpiece inclusion, there is an increased risk of inaccurate revenue and mail
     volume reporting.




9
  Handbook F-75, Section 372.4.
10
   Handbook F-75, Section 39.
11
   Handbook F-75, Chapter 3.


                                              3
Fiscal Year 2013 Statistical Test Reviews                                                           FT-MA-14-007




Equipment Security and Data Integrity

We also observed data collectors in three districts who did not follow procedures for
protecting data collection equipment. Specifically, in four of 45 tests observed, data
collectors did not place their CODES laptops into hibernation mode or lock their
keyboards when their laptops were unattended, thereby jeopardizing the integrity of test
data.12

One data collector with 5 months of experience was not aware of the requirement to
protect unattended CODES laptops (and was responsible for two of the four security
data issues). The other two data collectors were aware of the requirement; however,
one stated that, due to nervousness, he did not hibernate or lock the keyboard and the
other could not provide a reason for not protecting the laptop computer. We also
reported this issue in the prior 3 fiscal years. As a result of the Postal Service’s
remediation efforts and mandatory training for all data collectors during FY 2013, we did
not identify any security data integrity issues during the last quarter of the fiscal year.

Recommendations

We recommend the manager, Regulatory Reporting and Cost Analysis, direct the
manager, Statistical Programs, to:

1. Direct district managers, Financial Programs Compliance, to emphasize through
   individualized and quarterly training all sampling methodology policies and
   procedures and the necessity to protect data collection equipment to preserve data
   integrity.

2. Complete the revisions of all statistical programs handbooks and issue final copies
   to ensure data collectors use the updated policies and guidelines to conduct
   statistical tests.

Management’s Comments

Postal Service management agreed with our findings and recommendations. For
recommendation 1, management will provide quarterly and individualized training to
district and area staff, including managers of Financial Programs Compliance and
supervisors of Statistical Programs, on all the sampling methodology policies and
procedures. Instructions on protecting laptops and the importance of preserving data
integrity will be included in the training. The training is expected to be completed by
April 30, 2014.

For recommendation 2, management will submit Handbook F-75 for the corporate
approval process during FY 2014, Q3; submit Handbook F-9513 in FY 2014, Q4; and

12
     Handbook F-75, Appendix G, Section IV, Data Security and Integrity, Item F – CODES Equipment Security.
13
     Handbook F-95, Statistical Programs Management Guide, dated November 2013.


                                                          4
Fiscal Year 2013 Statistical Test Reviews                                  FT-MA-14-007



submit or re-submit all other statistical program handbooks following the normal
approval process during FY 2015. Completion of all the handbooks is expected by
September 30, 2015.

See Appendix C for management’s comments, in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
management’s actions should resolve the issues identified in the report.




                                            5
Fiscal Year 2013 Statistical Test Reviews                                                                FT-MA-14-007



                                  Appendix A: Additional Information

Background

The Postal Act of 2006 requires the Postal Service to report annual costs, revenue,
volume, and quality of service to the Postal Regulatory Commission. In an effort to meet
this requirement, the Postal Service continually collects information about the revenue,
volume, weight, and cost of the mail. The Postal Service’s ODIS-RPW is the primary
probability sampling system that estimates revenue, volume, and weight for most
classes of mail and extra services. The Postal Service uses this data to develop new
rates, prepare its budget, conduct management studies, and support management
decisions concerning mail operations.

The ODIS-RPW test requires data collectors to select mailpieces systematically for
testing using a random start for all mail available on the randomly selected day. Data
collectors observe employee work activity, sample live mail, collect data at randomly
selected sites, record the information on laptop computers, and transmit it for review. In
addition, the data collectors record various mailpiece characteristics, such as revenue,
weight, shape, indicia, barcode, postmark date, origin, and mail class. As part of this
process, the Postal Service relies on statistical programs’ sample information to protect
revenue and to estimate stamp usage when calculating PIHOP.

Information collected from tests is uploaded to the CODES, which resides on the
mainframe at the San Mateo, CA, Computer Operations Service Center. Finance uses
ODIS-RPW sample data to prepare the Revenue, Pieces, and Weight report, which is
the official summary of postal revenue, volume, and weight.

The managers, Financial Programs Compliance,14 handle the day-to-day operations of
Statistical Programs,15 ensuring that employees are trained and assigned to collect the
data and that they collect it properly. The supervisors of Statistical Programs help the
managers coordinate and manage training requirements and administer unit data
collection activities. In addition, management reviews the work of every person involved
with collecting statistical programs data to ensure they are properly performing all
processes they regularly execute. Management reviews data collectors with less than
1 year of experience in a program at least twice during their first year in that program.
Management reviews data collectors with more than 1 year of experience in a program
at least once during the fiscal year. Management is also responsible for initiating action
for any improvement opportunities noted during the observations. Once a process
review is completed, the reviewer must enter the results into the Process Support and
Tracking System. This system provides reports that are used to identify training
opportunities.


14
   The role of the manager, Financial Programs Compliance, is to conduct statistical programs tests, analyze data
and information, and conduct training and process review activities.
15
   The Statistical Programs group provides statistically reliable, accurate, and timely estimates of revenue, volume,
cost, and transit time for domestic and international mail.


                                                           6
Fiscal Year 2013 Statistical Test Reviews                                                          FT-MA-14-007



In the IPA’s report on internal controls,16 the auditor did not identify any deficiencies in
internal controls over financial reporting considered to be material weaknesses or
significant deficiencies as of September 30, 2013. However, in its FY 2012 report, the
IPA identified a significant deficiency related to the revenue, pieces, and weight
process. The Postal Service took sufficient corrective action to remediate this significant
deficiency as of September 30, 2013. Specifically, the decrease in test errors and
management’s continued efforts to mitigate the potential risk of errors contributed to the
overall severity of the significant control deficiency being reduced as of September 30,
2013.

Objective, Scope, and Methodology

The objective of our review was to determine whether the Postal Service conducted
statistical ODIS-RPW tests to collect revenue and volume data in accordance with
established policies and procedures.

To achieve our objective, we judgmentally selected and observed 41 data collectors
select mail to be tested and record various mailpiece characteristics into the data
collection laptop computer system. We observed these data collectors perform
45 ODIS-RPW tests in 15 districts. See Table 1 for a summary of ODIS-RPW
observations and testing errors by district, Table 2 for details of test errors and data
security issues by district, and Table 3 for a summary of repeat test errors previously
reported. We also interviewed the data collectors performing the selected tests and
statistical programs management. In addition, we reviewed the reports for each test that
management provided us.

We conducted this review from November 2012 through March 2014 in accordance with
the Council of the Inspectors General on Integrity and Efficiency, Quality Standards for
Inspection and Evaluation. We did not assess the reliability of the ODIS-RPW data and
did not rely on that data for the purposes of this report. The Postal Service’s IPA
performs independent testing to assess the Postal Service’s financial statements and to
validate testing results. The IPA requested we perform site visits to various mail facilities
to observe data collectors perform statistical ODIS-RPW tests in accordance with
policies and procedures. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on our review objectives. We discussed
our observations and conclusions with management on February 3, 2014, and included
management’s comments where appropriate.




16
  Internal Control Over Financial Reporting and on Compliance and Other Matters Based on an Audit of Financial
Statements Performed in Accordance with Government Auditing Standards, dated November 15, 2013.


                                                        7
Fiscal Year 2013 Statistical Test Reviews                                        FT-MA-14-007



Prior Audit Coverage


                                                            Final           Monetary
                                                           Report            Impact
             Report Title             Report Number         Date
  Statistical Tests for Fiscal        FT-MA-13-009       2/19/2013            None
  Year 2012
  Report Results:
  Data collectors did not always properly identify, isolate, and capture test mail or
  follow and apply the appropriate test mail sampling methodology. In addition, the
  data collectors did not label test mail to ensure it was isolated from mail processing
  until the test was completed and did not correctly enter and verify all data entered
  into their the laptop computers. Further, data collectors did not protect their laptop
  computers during tests. Management agreed with the recommendations.

  Statistical Tests for Fiscal        FF-MA-11-168         9/29/2011           None
  Year 2011
  Report Results:
  Data collectors did not always follow proper random start and mailpiece/container
  skip intervals; verify the information keyed into the laptop computer system;
  properly identify, isolate, and capture mail to be sampled/tested; or use marking
  labels to identify mail being tested. In addition, data collectors did not conduct the
  necessary interviews with facility personnel. Management agreed with the
  recommendations.




                                             8
Fiscal Year 2013 Statistical Test Reviews                                                                FT-MA-14-007




                                     Appendix B: Detailed Analysis

Tables 1 and 2 present information on test errors identified in each district and Table 3
is a summary comparison of the conditions reported in our FYs 2010, 2011, and 2012
capping reports.

                    Table 1. Summary of FY 2013 ODIS-RPW Observations
                                 and Test Errors by District


                                       Number of
                                         Data             Number of           Total           Number of
                                       Collectors           Tests           Number of         Tests With
               District17              Observed           Observed           Errors             Errors
         Albany                            2                  3                 0                 0
         Baltimore                         3                  3                 3                 2
         Bay-Valley                        3                  3                 0                 0
         Central
         Pennsylvania                        3                  3                 0                  0
         Colorado/Wyoming                    3                  3                 4                  2
         Dallas                              3                  3                 1                  1
         Greater South
         Carolina                            2                  3                 3                  2
         Lakeland                            2                  3                 0                  0
         Long Island                         3                  3                 0                  0
         Northern New
         Jersey                              3                  3                 0                  0
         Northern Ohio                       3                  3                 4                  2
         Oklahoma16                          3                  3                 0                  0
         Philadelphia
         Metropolitan                         3                3                  0                 0
         Rio Grande                           3                3                  1                 1
         Western New York                     2                3                  0                 0
         Total                               41                45                 16                10
        Source: OIG analysis.




17
  The districts shaded in grey did not have any test errors. Three districts, including Oklahoma, had issues with
security data integrity as shown in Table 2.


                                                           9
 Fiscal Year 2013 Statistical Test Reviews                                                                                                                                                                  FT-MA-14-007



                                                                  Table 2. Detail of FY 2013 ODIS-RPW Test Errors18
                                                                            and Observations by District19




                                                                                                                                                                 Northern Ohio
                                                                                                          Greater South
                                                                     Pennsylvania




                                                                                                                                                                                             Metropolitan
                                                                                                                                                                                             Philadelphia
                                                                                                                                     Long Island



                                                                                                                                                   New Jersey




                                                                                                                                                                                                               Rio Grande




                                                                                                                                                                                                                                       Test Errors
                                                     Bay-Valley




                                                                                                                                                                                  Oklahoma
                                                                                    Colorado\
                                         Baltimore




                                                                                                                                                                                                                            New York
                                                                                    Wyoming




                                                                                                                          Lakeland




                                                                                                                                                    Northern
                                                                                                            Carolina




                                                                                                                                                                                                                            Western
                                                                       Central
                               Albany




                                                                                                 Dallas




                                                                                                                                                                                                                                          Total
  Test Errors and
Other Observations
ODIS-RPW
Data collectors did not
follow procedures or
apply the appropriate
random start or
mailpiece/container skip
intervals.                              X(3)                                        X(3)        X(1)                                                            X(4)                                          X(1)                       12
Data collectors did not
enter correctly or verify
the information keyed
into the ODIS-RPW
computer.                                                                           X(1)                  X(2)                                                                                                                            3
Data collectors did not
properly identify, isolate,
and capture mail to be
sampled/tested.                                                                                           X(1)                                                                                                                            1
Total Test Errors                                                                                                                                                                                                                        16
Equipment Security
and Data Integrity
Data collectors did not
follow procedures to
protect data integrity and
data collection
equipment.                              X(1)                                                              X(2)                                                                   X(1)                                                     4
Source: OIG analysis.




 18
      The numbers of test errors are in parentheses.
 19
      Eight of 15 districts had no reported errors.


                                                                                                              10
Fiscal Year 2013 Statistical Test Reviews                                                              FT-MA-14-007




              Table 3. Summary of Repeat Test Errors Previously Reported

                                                                          Number of Testing Errors
 Description of Test Errors                                            FY     FY        FY         FY
                                                                      2013   2012*    2011*      2010*
 ODIS-RPW - Number of Tests Observed                                   45     45        65         63
 Data collectors did not follow procedures or apply the
 appropriate random start and mailpiece/container skip                 12           7           26            5
 interval.
 Data collectors did not enter correctly or verify the
                                                                        3           9           19            5
 information keyed into the ODIS-RPW laptop computer.
 Data collectors did not properly identify, isolate, and                1           3           11            0
 capture mail to be sampled/tested in ODIS-RPW tests.
 Data collectors did not use marking labels for all trays,              0           3           13            0
 bins, and mail containers being tested.
 Total Number of Testing Errors                                        16          22           69           10
 Equipment Security and Data Integrity
 Data collectors did not follow procedures to protect data              4           2           13            7
 integrity and data collection equipment.
 Source: OIG FY 2013 review results and prior statistical test capping reports.

 *We are showing test errors and observations reported this fiscal year and the fiscal years we previously reported
 on in our annual fiscal year capping reports.




                                                          11
Fiscal Year 2013 Statistical Test Reviews                       FT-MA-14-007



                            Appendix C: Management's Comments




                                            12
Fiscal Year 2013 Statistical Test Reviews        FT-MA-14-007




                                            13
